February 6, 2009

DELORES J. KILLETTE
VICE PRESIDENT AND CONSUMER ADVOCATE

SUBJECT: Audit Report – External First-Class Measurement System
         (Report Number NO-AR-09-003)

This report presents the results of our audit of the External First-Class (EXFC)
measurement system program (Project Number 08XG038NO000). Our objective was
to determine if the EXFC measurement system internal controls reasonably protect the
integrity of the EXFC measurement process. This audit resulted from a U.S. Postal
Service Office of Inspector General (OIG) investigation that found a Postal Service
manager had intentionally and successfully identified test mailpieces and “Reporters”1
and attempted to use the information to influence EXFC measurement results. This
audit addresses operational risk. See Appendix A for additional information about this
audit.

Conclusion

We concluded the EXFC measurement system’s internal controls reasonably protect
the integrity of the EXFC measurement process. However, it is important to understand
that our audit of these internal controls does not provide absolute assurance of the
absence of fraud or improper actions by Postal Service employees, due to the nature of
evidence and the characteristics of such activities.

Internal Controls

We examined internal controls relating to test mail appearance, induction, recruiting and
training, computer systems, breaches, and the EXFC contractor and found these
controls reasonably protected the integrity of the EXFC measurement system. Prior to
our review, and as a result of the OIG investigation, management determined there
were two internal computer system control weaknesses. These weaknesses were
subsequently corrected. See Appendix B for additional information.




1
    Reporters account for the receipt of test mailpieces at their residence, business or Post Office Box.
  External First-Class Measurement System                              NO-AR-09-003



  Criteria

  Handbook F-23, Section 2-9, Accounting Policy Reference, states that the Postal
  Service is responsible for establishing and maintaining a system of management and
  accounting controls. Postal Service contract 102592-02-B-0343 describes what the
  Postal Service requires for the EXFC service performance program. These
  requirements reflect the Postal Service’s internal control procedures.

  Cause

  The computer control weaknesses occurred because management and Mail History
  Tracking System (MHTS) representatives did not ensure information contained in the
  MHTS and the Transit Time Measurement System (TTMS) could not be used to identify
  test mailpieces and EXFC Reporters.

  Effect

  Internal control deficiencies could allow Postal Service employees to skew service
  scores and compromise the integrity of the EXFC measurement system. Our review of
  Postal Service EXFC data trends found no dramatic changes in service scores either
  nationally or in the Massachusetts District where the breach occurred (see Table 1).
  Sudden or dramatic changes in service scores could be an indication that the EXFC
  system has been compromised. See Appendix B for our detailed analysis of this topic.

               Table 1: EXFC Destinating Overnight, 2-Day, and 3-Day Scores
                                 Fiscal Years (FY) 2005-2008
                    Overnight                   2-Day                    3-Day
             Massachusetts National Massachusetts National Massachusetts       National
FY 2005          94.59        95.20        90.13        90.83      84.77        87.25
FY 2008          96.16        96.47        92.67        94.07      89.95        91.66
Change          1.66%         1.33%        2.82%        3.57%      6.11%        5.05%

  We recommend the Vice President and Consumer Advocate:

  1. Ensure, through periodic reviews, that External First-Class (EXFC) information
     contained in reports and computer systems cannot be used to identify test
     mailpieces or in any way compromise the integrity of the EXFC measurement
     system.

  Management’s Comments

  Management agreed with our findings and recommendation. The Vice President and
  Consumer Advocate directed the Manager, Customer Knowledge Management, to
  conduct bi-annual checks of systems associated with the EXFC measurement system




                                             2
External First-Class Measurement System                             NO-AR-09-003



and reports to determine if there is information that may result in breaches. If
management finds deficiencies, they will immediately correct them. See Appendix C for
management’s comments in their entirety.

Evaluation of Management’s Comments

Management’s comments are responsive to the recommendation and their actions
should correct the issue identified in the report.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact James L. Ballard, Director,
Network Processing, or me at (703) 248-2100.

     E-Signed by Robert Batta
 VERIFY authenticity with ApproveIt




Robert J. Batta
Deputy Assistant Inspector General
 for Mission Operations

Attachments

cc: Patrick R. Donahoe
    Maryellen J. Clarke
    Vanessa M. Martin
    Katherine S. Banks




                                          3
External First-Class Measurement System                                 NO-AR-09-003



                        APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

Recognizing its statutory requirement and its own commitment to improving service, the
Postal Service measures and reports on its effectiveness in meeting established
delivery standards for various classes including single piece First-Class Mail®. The
objective is to measure service performance from the customer’s perspective — to
produce accurate, independent, and externally generated data about whether the Postal
Service delivers mail within its allotted time, from the time it is dropped in a collection
box until it reaches its destination. Management compares the resulting performance
data to Postal Service delivery standards that are based on the date mailed, the date of
delivery, and the geographic locations involved.

To do its comparison, the Postal Service measures service performance through its
TTMS. Xxx XXXX xxxxxxxxxxx xxxxxx (xxx xxxxx xxxxxxxxx xx XXXX) xxxxxxxxxxxx
xxxxx x xxxxx xx xxx xxxxxxx XXX Xxxx™ xxxxx, xxx xxxxxx xx xxxxx xxx xxxxxxxxx xx
Xxxxxxx xxxx xxxx xxx xxx xxxxxxx XXX Xxxxx xx xxx xxxxxxxxxx xxxxxx. The Postal
Service selected these areas based on geography and volume density. The test
mailpieces represent ZIP Code areas from which 90 percent of First-Class Mail volume
originates, and to which 80 percent of it destinates.

The EXFC measurement process is as follows. First, mailpieces are fabricated and
made into test mail. Second, the “Droppers” place the test mail into collection
receptacles and report the time and date in the EXFC measurement system. Next, the
mail is accepted, processed, and delivered by the Postal Service. The delivered mail is
received either at a home, business address, or Post Office Box by “Reporters” who, in
turn, report the time and date of receipt in the EXFC measurement system. See the
EXFC flow diagram below for a process overview.




                                             4
External First-Class Measurement System                                                       NO-AR-09-003




                     Flow of EXFC Measurement System Mail




        Test Mail      Test Mail Induction
       Fabrication                                                                                     Test Mail Delivered
                          “DROPPER”
                                                                                                         “REPORTER”




                     Acceptance              Origin Processing       Destinating Processing           Delivery




It is essential to the mission of measuring performance through this non-biased
approach that the internal controls ensure Reporters, Droppers, and the test mail
remain anonymous. Any preferential treatment circumvents the intent of the program.

Xx xxx XXX xxxxxxxxxxxxx xxxx xxxxxxxx xxxx xxxxx, x xxxxxx xxxxxxx xxxxxxx
xxxxxxxxxx xxx xx xxx Xxxxxxxxx xx xxx xxxxxxxx, xxxxxxxxx xxxxxxx Xxxxxxxxxxx, xxx
xxxxxxxxx xx xxxx xxxx xxxxxxxxxx xxxxxxxx xx xxx Xxxxxxxxxx xxxxxxxxx xx xxxxx xx
xxxxxxxxx xxx xxxxxxxxxxx xxxx. Xx xxx xxxxxxxxxxxx xxxxxxx xxx Xxxxxxxxxxx
xxxxxxxx xxx Xxxxxx Xxxxxxx Xxxxxxxx Xxxxxxx Xxxxxx xxxxxxxxxxx xxx they
deactivated the Reporters and excluded their test mailpieces from the measurement
process. The manager was able to identify the Reporters because their monthly
newsletter was mailed from the same processing and distribution center in sequential
processing number order and that pattern, in combination with the manager’s intent and
access to the MHTS, was enough for him to develop a list of suspected Reporters’
addresses. As a result, the newsletter is now mailed through a mail consolidator.

OBJECTIVE, SCOPE, AND METHODOLOGY

Our objective was to determine if the EXFC measurement system internal controls
reasonably protect the integrity of the EXFC measurement process.

We based our examination of the EXFC measurement system on whether component
internal controls maintain confidentiality as outlined in Table 2. We reviewed
documentation and related written material on the EXFC measurement system;
documented the data collection procedures and internal controls for the system; and
obtained detailed explanations of the system in interviews with Postal Service officials.



                                                                 5
External First-Class Measurement System                                 NO-AR-09-003



We also examined some test mailpieces for authenticity of appearance. Finally, we
reviewed the service performance scores to determine if there was anything abnormal
that might indicate a compromise of the EXFC measurement system.

We conducted this performance audit from July 2008 through February 2009 in
accordance with generally accepted government auditing standards and included such
tests of internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objective. We discussed our observations
and conclusions with management on December 5, 2008, and included their comments
where appropriate.

PRIOR AUDIT COVERAGE

The OIG and the Government Accountability Office (GAO) have issued three reports in
recent years related to this topic.

                       Report             Final Report
  Report Title         Number                 Date                 Report Results
USPS Delivery        GAO-06-733             July 2006    (1) The Postal Service has
Performance                                              delivery standards for major types
Information                                              of mail, but some have not been
                                                         updated to reflect changes in how
                                                         mail is prepared and delivered.
                                                         (2) The Postal Service does not
                                                         measure and report its delivery
                                                         performance for most types of
                                                         mail; therefore, it falls short of
                                                         reporting on its overall
                                                         performance.
                                                         (3) Progress to improve delivery
                                                         performance information has
                                                         been slow and inadequate
                                                         despite numerous Postal Service
                                                         and mailer efforts.




                                               6
External First-Class Measurement System                                    NO-AR-09-003




                        Report             Final Report
 Report Title          Number                  Date                  Report Results
Critical Factors     TD-AR-02-001          February 28,    The critical factors identified
and Best                                       2002        included commercial airline
Practices for                                              performance, mail preparation,
Managing                                                   condition and arrival times,
External First-                                            adequate facilities, and
Class Mail                                                 management stability and
Measurement                                                staffing. Officials also offered
Systems                                                    practices that were implemented
                                                           in an effort to control the factors
                                                           affecting EXFC scores.

                                                           We found the Postal Service has
                                                           no formal mechanism for
                                                           identifying, assessing, and
                                                           sharing best practices affecting
                                                           service standard scores on a
                                                           nationwide basis.
External First-      DS-AR-00-001         March 27, 2003   We concluded that, although the
Class                                                      program satisfied several
Measurement                                                business concerns and is a useful
System                                                     mechanism for improving service
                                                           performance, the system could
                                                           be improved if:
                                                           (1) It included all ZIP Code areas
                                                           in the selection process.
                                                           Therefore, the results could be
                                                           projected across the entire
                                                           population of ZIP Codes. As
                                                           currently structured, statistical
                                                           projections can be made only to
                                                           the test domain.
                                                           (2) Management reduced the
                                                           sample size to the minimum size
                                                           necessary to obtain projected
                                                           results. The Postal Service could
                                                           save approximately $9.6 million
                                                           over a 5-year period by reducing
                                                           the sample size by one-third.
                                                           (3) The system measured the
                                                           mail volume flow of many modes
                                                           of First-Class Mail.




                                                7
External First-Class Measurement System                                  NO-AR-09-003



                            APPENDIX B: DETAILED ANALYSIS

Test Mail Appearance

We found that test mailpieces did not carry distinguishing marks and could not be
identified from the wide variety of actual mail the public sends. The test mail kits we
examined consisted of letters, flats, and postcards of different sizes, colors, weights,
addressing styles (machine printed and handwritten addresses), and postage (metered
and stamped). Management prepared test mailpieces in accordance with the Postal
Service’s Domestic Mail Manual for First-Class Mail and made them compatible with
Postal Service automation and mechanization equipment.

To help ensure the test mail is not identifiable based on appearance, the contractor
performs weekly address verification against both Postal Service-approved hygiene
software and Postal Service addressing standards. In addition, they conduct extensive
checks on actual test mailpieces after fabricating it. The contractor verifies that test mail
is produced according to kit specifications, the Optical Character Reader can read the
addresses, barcodes are legible, windowed envelopes satisfy tap test and reflectivity
requirements, and stamps and labels are firmly affixed and properly placed on
envelopes.

Test Mail Induction

A number of internal control procedures for mailing, or “inducting,” test mail help prevent
Droppers from developing a pattern that personnel might notice and use to identify the
test mailpieces or the program’s participants.

   •   Xx xxxx xxxxxxxxxx xxxx xxxxx xxxxxxxxxxxx, Xxxxxxxx xxx xxxxxxxxxx xx xx
       xxxxx xxxxxxxxxx xxxxx xxxx xxxx xxx, xxx xxxxx xxxx xxx xxx xxxx,xxxx xxx
       xxxxx xx xxxxx xxxx xxxxxx xxxx xxx xxxx. xxxx xx xxxxxxxxxxxx, xx xxxx,
       xxxxxxx xxx xxxxxxxxxxxx xxx xx xxxxxx xxxxxxxxx xxxx xxxxxxxxxxx xxxxxxxx
       xx xxxxxxxxx xxx xxxx xx xxxxxxxxxx xxxxx xxxx xxxx xxxxxxx xxx, xx xxxx,
       xxxxxxx xxx xxxxxxxxxx xxxxxxxx xxxxxxxx xxxx xx xxxxxx xxx xxxx xxxx. Xxx
       xxxxxxx, xxxx xxxxxx xxxxxxxx xx x xxxxxxx xxxxxx xx xxxxxxx xxxxxx xxx xxxxx
       xxxxxx xxxx xx xx xxxxxx xx xxxxxxxx xxxx.
   •   Xxxxxxxx xxx xxxxxxxx xx xxxxxxxx xxxxx xxxxxxxxxx xxx xxxx xxxx xx xxx xxxx
       xxxxxxx xx xxx xxxxxxxxxx xxx xxxxx xx xxxxxx xxx xxxxxxx xx xxx xxxxxxxxxx x
       xxxxxxx.
   •   Xxxx xxxxxx xxx xxxxxx xx xxxxxxx xxxx xxx xx xxxxxxx xxxxxxxxxxx xxxxxx xxx
       xxxx xxxxxxx XxX Xxxx xxxx xxxxxxxxxx xxxx xxxxxxx xx xxxxxx xxx xxxx xx
       xxxxxxxxxxxxxx.
   •   Xxx xxxxxxxx xxx xxxx xxxx xx xxxxxxxx xx xxx xxxxxxxxx, xxx xx xxx xxxxx
       Xxxxxx xxxxxxx Xxxxxxxx xxxx xxxx, xxxx xxx xxxxxxxxx xx xxxxxxx xxxxxxxx.
   •   X Xxxxxxx xxx xxxxxx xxxxx xxxx xx xxxxxxx xxx xxxxxxx xxx xx xx xx xxxxxxx
       xxx xxx xx x xxx xxxxxxxxxxx xxxxx.



                                              8
External First-Class Measurement System                                 NO-AR-09-003



   •   Xxx xx xxx xxxxxxx xxxxxxx xx xxxx xx xxxxx xxxx xxxx xxxx, xxxx xx xx xx
       xxxxxxxxxx xx xxxx. Xxxx xxxx xxx xxxxxx xxxxxxx xx xxxxxxx (xxx xxxxx) xx
       xxxx xxxxxx xxx xxxxxxxxxx xxx xx xxxxx xxx xxx xxxx xxxx xx xxxxxxxx,
       xxxxxxxxxx xxx xxxxxxxxxx xx xxxxxxxxx xxx xxxxxxxxx xxxxxxxxxxxxxx.
   •   Xxx xxxxxxxxxx xxxxxxxx xxxxxx Xxxxxxx xxxxxxxxxxxx xx xxxxxx xxxx
       Xxxxxxxx xxxxxx xxxx xxxxx xxxxxxxxxx xxxxxxx, xx xxx xxx xxxxx xxxxxx, xxx
       xx xxx xxxxx xxxxxxx xxxxxxxxxx.

Recruiting and Training Program Participants

A direct mail campaign is used to recruit Reporters and Droppers, and the controls over
these individuals appear comprehensive. We found the screening process for program
participants effectively allows the EXFC contractor to determine if candidates meet the
general qualifications, such as being available to receive the mail on a consistent basis
and not being affiliated with the Postal Service or one of its competitors. Similarly, the
training guide and the one-on-one follow up training session provide the tools and
procedural information participants need to understand and be able to perform their
duties. For example, the training guide explains how, when, and where the test mail
should be inducted; and specifies that the participants need to be available to check for
their mail Monday through Saturday on a consistent basis. Participants also receive
specific instructions to keep their involvement with the testing strictly confidential. The
participants’ performances are monitored through quality checks and data analysis
throughout the process of identifying and addressing discrepancies and data issues. In
addition, they are subject to quarterly performance reviews and in-person observations
when warranted.

Breaches

We found that if test mailpieces are identified, controls are in place to minimize any
negative effects. Management thoroughly investigates incidents involving breaches so
it can remove the affected data, even post-breach. The review process involves
understanding how a breach occurred and the extent of the damage. In the end,
management decides whether they need to further validate, change or cancel the data
and whether they need to remove the Droppers or Reporters.

   •   Xxxxxxxxxxx xxxxxxxxxxxxx xx xxx xxxx xxxxxxxx xxxxxxx xxx xxxxxx
       xxxxxxxxxx xxxx xxx xxxxxxxxxx xxxx xxxxxxxxx xxx xxxxxxxxx xxx xxxxxxxxxxx
       xxxxx xx xxx xxxxxxxx xxxxxxxxx xxxxxxxxxxx, xxx xxxxxxxx xxx xxxxxxxxxxx xx
       xxxxx xxxxxxx xxx Xxxxxxxx xxxxxxxx xx xxx xxxx xxx. Xxxxxxxxxx xxx
       xxxxxxxxx xxxxxxxxxx xx xxxxxxx xxxxx xxxxxxxxxxxxx xxxx xxxx xx xxxx xxx
       xxxx xxxxxxxxx xxxxx xx xxx xxxx xxxxxxxxx xxxxxxxx. Xx xxxxxxxx, xxx xxxxxx
       xxxxxxx xxxxxxxxx xxx xxxxxxx xx xxx Xxxxxxxxx xxxxxxxxxxx – xxxxx xxxx xxxx
       xxxxxxxx xxxxxxx xxxxxxxx xxxxxxx xxxxxx xxx xxxx xxxxxxxx – xx xxxxxxxxx xx
       xxx Xxxxxxxx xxxxxxxx xxxxxxxxxx.




                                             9
External First-Class Measurement System                                                       NO-AR-09-003



    •    Furthermore, management has instructed employees to report to the Consumer
         Affairs Office if they identify Droppers or Reporters. The contractor performs
         extensive data analysis of suspicious data such as zero bundles,2 late bundles,
         and reported bundle information that is contrary to information reported about
         other bundles in a performance cluster. As an added precaution, a delivery
         service other than the Postal Service delivers the bundles and other program
         materials to Droppers and Reporters.

Computer Systems

Between March and August 2007, management corrected the two major internal control
weaknesses that allowed identification of the test mailpieces. One of the control
weaknesses was the diagnostic information available through the MHTS3 that allowed
identification of test mailpieces based on the subscriber identification number.
Management has since masked the data.

The second control weakness was that the Enterprise Data Warehouse (EDW) and
contractor’s EXFC reports contained detailed information about test mailpieces that did
not meet the service standards. For example, the Reporters’ Type Performance Report
and the City Matrix Report specified whether the Reporter was a business, household,
box holder, or non-box holder and narrowed the EXFC failure to a small grouping of
delivery zones, respectively. Postal Service personnel could use the information in
conjunction with the Service Browser – Service Failure Report contained in MHTS to
identify test mailpieces. The Postal Service has subsequently corrected this control
weakness and this information no longer is available.

EXFC Contractor

The Postal Service also evaluates the contractor’s work at least once a year to ensure
adherence to the contract requirements. The Postal Service’s evaluation covers the
scope of all operations the contractor conducts for the EXFC service performance
program. This includes, but is not limited to, the verification of sample selection, test
mail characteristics, mail induction, data analysis, and Droppers’ and Reporters’
performance. The Postal Service discusses the outcome of its evaluation with the
contractor to determine the appropriate remedies within the scope of the contract.




2
 A bundle in which all of the overnight test mailpieces fail.
3
 An online application that provides diagnostic tracking of individual mailpieces. MHTS is primarily intended to find
correctable sorting and maintenance problems on Postal Service automated equipment.




                                                          10
   External First-Class Measurement System                                                       NO-AR-09-003



   Service Score Trends

   Internal control deficiencies could allow Postal Service employees to skew service
   scores4 and compromise the integrity of the EXFC measurement system. Our review of
   Postal Service EXFC data trends since FY 2005 found there have been no dramatic
   changes in service scores either nationally or at the Massachusetts District where the
   breach occurred. Sudden or dramatic changes in service scores could indicate a
   compromise of the EXFC measurement system. As reflected in Table 3, we found that
   from FY 2005 to FY 2008, national overnight and 2- and 3-day scores have increased
   approximately 1.33 percent, 3.57 percent, and 5.05 percent, respectively. In
   comparison, as shown in Table 3, the Massachusetts District’s overnight and 3-day
   scores increased slightly more than the national average (1.66 percent versus
   1.33 percent, and 6.11 percent versus 5.05 percent, respectively). The 2-day score
   increase was not as high as the national average (2.82 percent versus 3.57 percent).

      Table 3: EXFC Destinating Overnight, 2-Day and 3-Day Scores, FY 2005-2008
                   Overnight                  2-Day                    3-Day
          Massachusetts National Massachusetts National Massachusetts National
FY 2005        94.59         95.20      90.13          90.83       84.77       87.25
FY 2008        96.16         96.47      92.67          94.07       89.95        91.66
Change         1.66%         1.33%      2.82%         3.57%        6.11%       5.05%

   In addition, examination of service scores for each of the 463 ZIP Codes by quarter
   from FY 2005 to FY 2008 did not show any dramatic changes. (See Table 4.)




   4
    Because EXFC test mailpieces represent a sample, each test mailpiece has an impact on the projections to the total
   mail volume. Therefore, any type of manipulation through identification of test mailpieces could affect service scores,
   even though the number of mailpieces may be relatively small in relation to total mail volume.




                                                             11
   External First-Class Measurement System                     NO-AR-09-003




 Table 4: EXFC Destinating Overnight, 2- Day and 3-Day Percentage Scores By Quarter
                 Overnight                     2-Day                   3-Day
          Massachusetts National Massachusetts National Massachusetts National
Q1 2005      94.66         94.93         90.28        90.07        84.01      85.52
Q2 2005      94.11         95.09         89.47        89.76        79.53      83.17
Q3 2005      95.03         95.57         89.66        91.95        87.45      90.15
Q4 2005      94.54         95.21         91.09        91.48        87.79      89.80
Q1 2006      93.99         94.28         88.99        87.89        81.10      82.89
Q2 2006      94.49         94.91         90.82        89.31        86.92      86.25
Q3 2006      94.97         95.32         91.17        91.39        89.59      90.78
Q4 2006      94.49         95.43         91.72        91.71        87.10      90.24
Q1 2007      94.05         95.07         91.63        90.79        82.71      86.17
Q2 2007      94.45         95.31         91.30        91.32        85.64      87.99
Q3 2007      96.00         95.96         91.78        93.28        89.43      91.45
Q4 2007      95.87         96.12         93.01        93.99        91.03      92.62
Q1 2008      95.63         95.99         89.47        92.67        85.23      88.19
Q2 2008      95.88         96.40         93.72        94.20        91.37      91.87
Q3 2008      96.80         96.84         95.10        95.24        91.60      93.67
Q4 2008      96.32         96.67         92.39        94.19        91.65      92.94
   Q – Quarter




                                             12
External First-Class Measurement System                    NO-AR-09-003



                       APPENDIX C: MANAGEMENT’S COMMENTS




                                          13
